Docket No.

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
OCTOBER TERM, 2020
JUAN FREDY HERNANDEZ-ZOZAYA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

CERTIFICATE OF SERVICE

I hereby certify that, on November 9, 2020, I caused two (2) copies of Petitioner’s Petition
for Writ of Certiorari and Motion to Proceed In Forma Pauperis to be served by regular mail upon
the Solicitor General of the United States, Room 5616, U.S. Department of Justice, 950
Pennsylvania Ave., N. W., Washington, DC 20530-0001.
All parties required to be served have been served.

Mark A. Berman, Esq.

